Department of Homeland Security
   Ofﬁce of Inspector General

    Evaluation of DHS' Information Security 

         Program for Fiscal Year 2009 


                  (Redacted)





OIG-09-109                          September 2009
                                                                  Office of Inspector General

                                                                  U.S. Department of Homeland
                                                                  Security
                                                                  Washington, DC 20528




                                 September 23, 2009


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of controls over the information
security program and practices at DHS. It is based on interviews with selected program
officials at the department and components, direct observations, a review of applicable
documents, and system testing.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                         Richard L. Skinner 

                                         Inspector General 

Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 2 


  Results of Independent Evaluation ................................................................................................ 4 


  Recommendations........................................................................................................................ 17 


  Management Comments and OIG Analysis ................................................................................ 18 


Appendices
  Appendix A:                Purpose, Scope, and Methodology.................................................................. 22

  Appendix B:                Management Response to Draft Report.......................................................... 24

  Appendix C:                DHS June and July 2009 FISMA Scorecards ................................................. 27 

  Appendix D:                DHS June and July 2008 FISMA Scorecards ................................................. 28 

  Appendix E:                FISMA System Inventory and Certification and Accreditation, Security
                             Controls Testing, and Contingency Plan Testing ........................................... 29 

  Appendix F:                Evaluation of Agency Oversight of Contractor Systems and Quality of
                             Agency System Inventory............................................................................... 32 

  Appendix G:                Evaluation of Agency Plan of Action and Milestones Process....................... 33 

  Appendix H:                IG Assessment of the Certification and Accreditation Process ...................... 34 

  Appendix I:                IG Assessment of Agency Privacy Program and Privacy Impact
                             Assessment Process ........................................................................................ 35 

  Appendix J:                Configuration Management ............................................................................ 36 

  Appendix K:                Incident Reporting .......................................................................................... 37 

  Appendix L:                Security Awareness Training and Peer-to-Peer File Sharing ......................... 38 

  Appendix M:                Major Contributors to this Report................................................................... 39 

  Appendix N:                Report Distribution ......................................................................................... 40 


Abbreviations
  ATO                        Authority to Operate    

  C&A                        Certification and Accreditation   

  CBP                        United States Customs and Border Protection 

  CIO                        Chief Information Officer 

  CIS                        Citizenship and Immigration Services      

  CISO                       Chief Information Security Officer    

  DHS                        Department of Homeland Security      

  FDCC                       Federal Desktop Core Configuration      


                           Evaluation of DHS’ Information Security Program for Fiscal Year 2009
Table of Contents/Abbreviations 

  FEMA               Federal Emergency Management Agency
  FIPS               Federal Information Processing Standards
  FISMA              Federal Information Security Management Act
  FLETC              Federal Law Enforcement Training Center
  FY                 Fiscal Year
  ICE                United States Immigration and Customs Enforcement
  ISO                Information Security Office
  ISSO               Information Systems Security Officer
  IT                 Information Technology
  Management         Management Directorate
  NFRs               Notice of Findings and Recommendations
  NIST               National Institute of Standards and Technology
  OIG                Office of Inspector General
  OMB                Office of Management and Budget
  PIA                Privacy Impact Assessment
  PII                Personally Identifiable Information
  POA&M              Plan of Action and Milestones
  PTA                Privacy Threshold Analysis
  S&T                Science and Technology
  SOC                Security Operations Center
  SP                 Special Publication
  Training Office    Information Security Training, Education, and Awareness Office
  TSA                Transportation Security Administration
  USCG               United States Coast Guard
  USSS               United States Secret Service




                    Evaluation of DHS’ Information Security Program for Fiscal Year 2009
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                We reviewed the Department of Homeland Security (DHS’)
                information security program and practices to comply with the
                requirements of the Federal Information Security Management Act of
                2002 (Public Law 107-347, Sections 301-305). In evaluating DHS’
                progress in implementing its agency-wide information security
                program, we reviewed the department’s Plan of Action and Milestones
                (POA&M), as well as its certification and accreditation (C&A)
                processes. We also performed an evaluation of the department’s
                privacy program. Fieldwork was performed at both the program and
                component levels.

                The department continues to improve and strengthen its security
                program. During the past year, DHS developed and implemented the
                fiscal year (FY) 2009 information security performance plan to enhance
                its security program, focusing on areas that the department would like
                to improve upon throughout the year. Specifically, DHS identified in
                the performance plan several key elements that are indicative of a
                strong security program, such as POA&M weakness remediation,
                quality of C&A, annual testing and validation, and security program
                oversight. While these efforts have resulted in some improvements,
                components are still not executing all of the department’s policies,
                procedures, and practices. For example, our review of DHS scorecards
                for a two year period revealed that components have not maintained
                their information security programs at the department’s targeted
                performance level. In addition, our review identified the following
                more significant exceptions to a strong and effective information
                security program:
                �	 Systems are being accredited though key information is missing.
                �	 POA&Ms are not being created for all known information security
                     weaknesses.
                �	 POA&M weaknesses are not being mitigated in a timely manner.
                �	 Baseline security configurations are not being implemented for all
                     systems.
                Components’ execution of DHS’ policies, procedures, and practices
                must be improved in order for the department to ensure that all
                information security weaknesses are tracked and remediated, and to
                Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                              Page 1
                enhance the quality of system C&A. Additional information security
                program areas that need improvement include configuration
                management, incident detection and analysis, specialized training, and
                privacy.

                We are making eight recommendations to the Chief Information Officer
                and Chief Privacy Officer. The department concurred with all of our
                recommendations and has already begun to take actions to implement
                them. The department’s response is summarized and evaluated in the
                body of this report and included, in its entirety, as Appendix B.

Background
                Due to the increasing threat to information systems and the highly
                networked nature of the federal computing environment, the Congress,
                in conjunction with the Office of Management and Budget (OMB),
                requires an annual review and reporting of agencies’ compliance with
                the Federal Information Security Management Act (FISMA). FISMA
                focuses on the program management, implementation, and evaluation
                of the security of unclassified and national security systems.

                Recognizing the importance of information security to the economic
                and national security interests of the United States, the Congress
                enacted Title III of the E-Government Act of 2002 (Public Law
                107-347, Sections 301-305) to improve security within the federal
                government. Information security means protecting information and
                information systems from unauthorized access, use, disclosure,
                disruption, modification, or destruction. Title III of the E-Government
                Act, entitled FISMA, provides a comprehensive framework to ensure
                the effectiveness of security controls over information resources that
                support federal operations and assets.

                FISMA requires each federal agency to develop, document, and
                implement an agency-wide security program. The agency’s security
                program should protect the information and the information systems
                that support the operations and assets of the agency, including those
                provided or managed by another agency, contractor, or other source.
                As specified in FISMA, agency heads are charged with conducting an
                annual evaluation of information programs and systems under their
                purview, as well as an assessment of related security policies and
                procedures. Offices of Inspector General (OIG) must independently
                evaluate the effectiveness of an agency’s information security program
                and practices on an annual basis.


        Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                          Page 2
        OMB issued memorandum M-09-29, FY 2009 Reporting Instructions
        for the Federal Information Security Management Act and Agency
        Privacy Management, on August 20, 2009. The memorandum provides
        updated instructions for agency and OIG reporting under FISMA. In
        accordance with OMB’s reporting instructions, this annual evaluation
        summarizes the results of our review of DHS’ information security
        program and practices.

        The Chief Information Security Officer (CISO) leads the Information
        Security Office (ISO) and is responsible for managing DHS’
        information security program. To aid in managing its security program,
        DHS developed a process for reporting and capturing known security
        weaknesses in its POA&Ms. DHS uses an enterprise management tool
        to collect and track data related to all POA&M activities, including
        weaknesses identified during self-assessment and the C&A process.
        DHS’ enterprise management tool also collects data on other FISMA
        metrics, such as the number of systems that have implemented DHS’
        security baseline configurations and the number of employees who
        have received information technology (IT) security training.

        In addition, DHS uses an enterprise-wide C&A tool to automate and
        standardize portions of the C&A process to assist DHS components in
        quickly and efficiently developing their security accreditation packages.
        Below is an illustration on how the enterprise management and C&A
        tools are used within the department to collect, manage, and report
        information security metrics.

                             DHS’ Enterprise Security Management Tools Usage

                 DHS 4300                                                               C& A Tool                                                           D a ta R e v iew T e a m s

          F IS M A R e q u ire m e n ts                                     S y ste m S ec u rity P la n (S S P )                                                     DHS
                                                                                                                                                                 C o m p lia n ce
          O M B /N IS T G u id a n c e                              R e q u irem e n ts T ra c e a bility M atrix (R T M )                                          R e v ie w
                                                                                                                                                                    Team s
                                                                       S e c u rity A sse s sm e n t R e p o rt (S A R )
          O th e r R e q u ire m e n ts
                                                                              S am p le T e st P ro c e d u re s
                        C o m p o n e nt IT S e c u rity                                                                                                              O IG
                        P ro g ram Im plem e n ta tio n                               T e s t R e s u lts

                                                                                  C o n tin g e nc y P lan s                   D a ta V e rific atio n
                                           IT S y stem                                                                               a n d R ev ie w
                                   Im p lem e n tatio n s                                                                                                       C o m p o n e n t/
                                                                                                                                                                  D o m a in
                                                                                                F u tu re L in k                                                    IS S M
                   DHS
              C o m p o n e n t/
                                                                            F IS M A R e p o rtin g T o o l
                 D o m a in

                                                                     S y ste m a n d P ro g ram S ec u rity M e tric s
                                         M o n th ly S tatu s
                                         U p d a te s               P la n of A ctio n a nd M ile sto n e s (P O A & M )
                                                                                                                             F IS M A R e p o rts                     OMB
                                                                       A n n u a l A sse s sm e n t Q u e stio n n a ire

                                                                          S um m a ry of C & A S ta tu s /D o c s

                                                                                          R e p o rts

                                                                                   D ig ita l D a sh b o a rd                 M e tric s
                                                                                                                                                                   DHS
                                                                                                                              D ig ita l D a s h b o a rd      M anagem ent




Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                                Page 3
                        Source: DHS 4300A Sensitive Systems Handbook, Attachment E – FISMA Reporting
Results of Independent Evaluation
                        Based on the requirements outlined in FISMA and OMB’s annual
                        reporting instructions, our independent evaluation focused on seven key
                        areas of DHS’ information security program, (i.e., system inventory;
                        certification and accreditation process; plan of action and milestones
                        process; configuration management; incident detection, handling, and
                        analysis procedures; security training; and privacy). In addition to our
                        independent evaluation, we conducted reviews of DHS’ information
                        systems and security program-related areas throughout FY 2009. This
                        report includes the results of a limited number of systems evaluated
                        during the year and our on-going financial statement review, including
                        the LAN-A, OneNet, Los Angeles International Airport, and web server
                        audits.1

                        We separated the results of our evaluation into seven FISMA areas.
                        For each area, we identified the progress that DHS has made since our
                        FY 2008 evaluation and those issues that need to be addressed to be
                        more successful in the respective information security program area.

                OVERALL PROGRESS

                        �	 The CISO developed the Fiscal Year 2009 DHS Information
                           Security Performance Plan “Maintaining Excellence” to enhance
                           its information security program, and to make continuous
                           improvements on all existing processes. In addition, the CISO
                           refined its FISMA scorecard metrics to better evaluate components’
                           compliance with the performance plan. See Appendix C and D for
                           examples of the FISMA scorecard.
                        �	 The CISO revised the department’s baseline IT security policies and
                           procedures in DHS Sensitive Systems Policy Directive 4300A and its
                           companion, DHS 4300A Sensitive Systems Handbook to reflect the
                           changes made in DHS security policies and various National
                           Institute of Standards and Technology (NIST) guidance, such as
                           assessing the effectiveness of controls implemented on information
                           systems, and incorporating security into system life cycles.


1
 Technical Security Evaluation of DHS Activities at Los Angeles International Airport (OIG-09-01,
October 2008), Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A
(OIG-09-55, April 2009), Improved Management and Stronger Leadership Are Essential to Complete the
OneNet Implementation (OIG-09-98, September 2009), and Vulnerabilities Highlight the Need for More
Effective Web Security Management (OIG-09-101, September 2009).
                Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                  Page 4
        �	   DHS continues to maintain an effective process in updating and
             managing an inventory of its agency and contractor systems on an
             annual basis. In addition, DHS updated its FISMA System
             Inventory methodology to identify the Chief Financial Officer
             designated systems.
        �	   The CISO implemented more stringent criteria when reviewing the
             artifacts contained in accreditation packages. Once all the artifacts
             are approved by the component CISO, DHS reviews the entire
             accreditation package for consistency and completeness.
        �	   DHS improved on its Vulnerability Assessment Program as the
             DHS Security Operations Center (SOC) now has full visibility at
             Customs and Border Protection (CBP), Citizenship and
             Immigration Services (CIS), Federal Law Enforcement Training
             Center (FLETC), Management Directorate (Management), National
             Protection and Programs Directorate (NPPD), Science and
             Technology (S&T), and Transportation Security Administration
             (TSA).
        �	   The CISO has taken actions to evaluate classified POA&Ms
             maintained at the Federal Emergency Management Agency
             (FEMA), Transportation Security Administration (TSA), and
             United States Coast Guard (USCG).
        �	   DHS documented the deviations from the Federal Desktop Core
             Configuration (FDCC) settings and components have taken steps to
             implement the settings on Windows XP and Vista desktops and
             laptops. Our testing results confirmed that FLETC had
             implemented FDCC settings on its Windows XP workstations.

OVERALL ISSUES TO BE ADDRESSED

        Despite the progress made to the department’s overall information
        security program, components are still not executing fully the
        department’s policies, procedures, and practices. For example, our
        review of DHS FISMA scorecards for the period June 2007 through
        July 2009 revealed that components do not sustain their information
        security programs on a year round basis or do not perform continuous
        monitoring to maintain system accreditations and POA&Ms. For
        example:
        �	 Components’ overall scores drop considerably following July
            (FISMA reporting cut-off) and do not show any significant progress
            until the months leading up to the subsequent annual FISMA
            reporting. Furthermore, scores remain below the minimum
            performance target (80%) for the majority of the year. Components
Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 5
                               are reaching outstanding performance levels (green) only at the time
                               of FISMA reporting. See Figure 1.2




                          �	   To evaluate the effectiveness of components’ continuous
                               monitoring program, we selected two significant metrics from DHS
                               scorecards: C&A and POA&Ms quality. As depicted in Figure 2,
                               the scores for both metrics peak in the months of annual FISMA
                               reporting (around July) and quickly drop in subsequent months.3
                               As such, systems’ C&A packages and POA&Ms are not being
                               updated as required by the components.4 See Appendix C for June
                               and July 2009 DHS scorecards and Appendix D for June and July
                               2008.




2
  DHS could not provide the scorecards for the months of August 2007, September 2007, October 2008, and
November 2008.
3
  DHS could not provide the scorecards for the months of October and November 2008.
4
  In accordance with NIST 800-37, “continuous monitoring” is the fourth phase of the C&A process (i.e., after
the information system has been certified and accredited). OMB noted in its FY09 FISMA reporting instructions
that “Continuous monitoring of security controls is a cost-effective and important part of managing enterprise
risk and maintaining an accurate understanding of the security risks confronting agency’s information systems.
Continuous monitoring of security controls is required as part of the security C&A process to ensure controls
remain effective over time (e.g., after the initial authorization or reauthorization of an information system). A
robust and effective continuous monitoring program will ensure important procedures included in an agency’s
accreditation package (e.g., as described in system security plans, security assessment reports, and POAMs) are
updated as appropriate and contain the necessary information for authorizing officials to make credible
risk-based decisions regarding the security state of the information system on an ongoing basis.
                  Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                     Page 6
        In addition:

        �	   Artifacts supporting the component systems C&A were missing key
             information to allow the accrediting officials to make a credible risk
             based decision.
        �	   Components have not incorporated all known information security
             weaknesses into their POA&Ms.
        �	   Components have not fully implemented DHS’ baseline
             configuration settings.
        �	   Components are not consistently maintaining and tracking their
             classified POA&Ms.
        �	   Appropriate training is needed for all individuals with significant
             security responsibilities.
        �	   An escalation process is needed for privacy impact assessments
             (PIA) that have been in the review and approval process for more
             than six months.

System Inventory

        DHS maintains an effective process to update and manage its systems
        inventory on an annual basis, including agency and contractor systems.
        In addition, DHS conducts site visits to identify systems that were not
        included in the department’s annual inventory update process.


Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 7
                         PROGRESS

                         �	   DHS continues to maintain a comprehensive inventory of its major
                              applications and general support systems, including contractor
                              systems. In addition, DHS updated its FISMA System Inventory
                              methodology to identify the Chief Financial Officer designated
                              systems. As of July 31, 2009, DHS identified 579 operational
                              systems.

                         ISSUES TO BE ADDRESSED

                         �	   We noted that a high percentage of systems are reported by
                              components as “under development” in DHS’ enterprise
                              management tool. As of June 30, 2009, components reported that
                              57 general support systems and 130 major applications are “under
                              development.” This represents 32% of DHS operational systems
                              and may indicate that components are not accurately reporting the
                              life cycle status of their systems to the department.
                         �	   While CBP’s classified laptop system is operational, the component
                              reported it as “under development” in DHS’ enterprise management
                              tool. CBP personnel indicated that they reported the system as
                              “under development” because the accreditation package was
                              classified as “secret” and could not be uploaded into DHS’
                              enterprise management tool.
                         �	   The results of our web server audit revealed that “cbp.gov” has not
                              been included in DHS’ system inventory.5

                         See Appendices E and F for system inventory and evaluation of DHS’
                         oversight of contractor systems and quality of system inventory.

                Certification and Accreditation Process

                         DHS follows the C&A process outlined in NIST Special Publication
                         (SP) 800-37 to certify and accredit its systems. Components are
                         required to use an enterprise-wide tool that incorporates NIST
                         recommended security controls required for system C&A. The C&A
                         process requires documentation, such as system security plans, risk
                         assessments, system test and evaluation plans, security assessment


5
 Vulnerabilities Highlight the Need for More Effective Web Security Management (OIG-09-101,
September 2009).
                 Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                   Page 8
                           reports, contingency plans, contingency plan test results, and
                           self-assessments.

                           For some of the systems that have been accredited by the components,
                           the artifacts that are required to C&A a system were either missing or
                           incomplete. In addition, some of the self-assessments were not being
                           properly completed by the components. We identified a similar issue in
                           our FY 2008 FISMA report.6

                           PROGRESS

                           �	   DHS requires components to upload 11 C&A artifacts into its
                                enterprise management tool to monitor the progress in accrediting
                                systems. The 11 artifacts are: Authority to Operate (ATO) letter,
                                system security plan, security assessment report, risk assessment,
                                security test and evaluation, contingency plan, contingency plan test
                                results, Federal Information Processing Standards (FIPS) 199
                                determination, E-authentication determination, privacy threshold
                                analysis (PTA)/privacy impact assessment (PIA), and NIST
                                SP 800-53 self-assessment.
                           �	   As of July 31, 2009, the CISO reported that 93 percent of DHS’
                                operational systems (540/579) have been certified and accredited.
                           �	   The quality of C&A packages has improved in FY 2009, when
                                compared to FY 2008. Specifically, we identified fewer instances
                                where the required information was missing from security
                                documents.

                           ISSUES TO BE ADDRESSED

                           �	   We selected 35 systems from 12 components and offices to evaluate
                                the quality of DHS’ C&A process. Our review revealed that the
                                component CISOs have not performed adequate reviews to ensure
                                that the artifacts contain the required information to meet all
                                applicable DHS, OMB, and NIST guidelines. For some of the
                                systems that have been accredited by the components, the artifacts
                                that are required to C&A a system were either missing or
                                incomplete. Without this information, agency officials cannot make
                                credible, risk-based decisions on whether to authorize the system to
                                operate. Specifically:



6
    Evaluation of DHS’ Information Security Program for Fiscal Year 2008 (OIG-08-94, September 2008).
                   Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                     Page 9
                 � We identified eight instances where the FIPS-199
                   determination was not completed and four instances where
                   FIPS-199 determination was outdated. The FIPS-199
                   determination, when applied properly during the risk
                   assessment process, helps agency officials to select
                   applicable controls for the information systems.
                 � Twenty-five instances were identified where system security
                   plans were missing sections that describe detailed
                   emergency configuration changes, management plans,
                   security controls, and incident handling procedures. In
                   addition, we noted four instances where the system security
                   plans were outdated. The system security plan should be
                   current, providing an overview of the information system,
                   and describing the security controls implemented or planned
                   to protect the system.
                 � We identified seventeen instances where contingency plans
                   were incomplete, missing the identification of alternate
                   processing facilities or restoration procedures. Four of the
                   contingency plans were more than three years old. An
                   updated contingency plan can help agency officials to
                   maintain or restore business operations, including computer
                   operations, possibly at an alternate location, in the event of
                   emergencies, system failures, or disaster.
                 � The contingency plans for two “high availability” systems
                   had not been tested because the alternate processing
                   facilities were not operational. Contingency plan testing
                   identifies planning gaps and is also a training exercise to
                   prepare recovery personnel for plan activation, which can
                   improve plan effectiveness and overall agency preparedness.
                   Untested plans may create a false sense of ability to recover
                   operations in a timely manner.

        �	   As part of the C&A review, we also evaluated the quality of
             completed NIST SP 800-53 self-assessments. For example, we
             evaluated whether the components provided support for all
             applicable controls as to how they were implemented. In addition,
             we assessed whether supporting documentation existed for all
             controls that were reported as “tested.” Finally, we evaluated the
             adequacy of the justifications for any controls that were reported as
             “not applicable,” and whether a POA&M was created for all
             required controls that had not been tested. Specifically:
                 � We identified eighteen instances where controls, required by
                   DHS and NIST, were missing from the self-assessments.

Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 10
                                 � We noted fifteen instances where required controls were not
                                   tested; did not include validation and verification testing; or
                                   were missing documentation to support that testing was
                                   performed. Examples of these instances were found in the
                                   areas of access control, configuration management,
                                   contingency planning, and risk assessment.

                        �	   We reported in April 2009 that the LAN-A system was certified and
                             accredited without the required security documents.7

                        See Appendix H for our assessment of DHS’ C&A process.

                Plan of Action and Milestones Process

                        DHS requires components to create and maintain POA&Ms for all
                        known IT security weaknesses. DHS performs automated reviews on
                        POA&Ms for accuracy and completeness and the results are provided
                        to components on a daily basis. Despite these efforts, components are
                        not entering and tracking all IT security weaknesses in DHS’ enterprise
                        management tool, nor is all of the data entered by the components
                        accurate and updated in a timely manner. We identified a similar issue
                        in our FY 2008 FISMA report.

                        PROGRESS

                        �	   DHS had taken actions to evaluate classified POA&Ms maintained
                             at FEMA, TSA, and USCG.
                        �	   Components have created POA&Ms for 135 of 140 (96%) notice of
                             findings and recommendations (NFRs) for the weaknesses
                             identified during the FY 2008 financial statement audit.
                        �	   Components have prioritized all unclassified POA&Ms in DHS’
                             enterprise management tool.

                        ISSUES TO BE ADDRESSED

                        �	   Components are not correcting all deficiencies identified during
                             DHS’ POA&M quality reviews. Our review of DHS’ quality
                             reports identified repeated deficiencies, such as inaccurate
                             milestones, lack of resources to mitigate the weaknesses, and delays
                             in resolving the POA&Ms that are not corrected by the components.
7
 Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A (OIG-09-55,
April 2009).
                Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                  Page 11
        �	   Components are not monitoring the status of their high priority
             POA&Ms or reviewing them for consistency and completeness.
             DHS requires component CISOs to monitor the progress of the
             POA&M implementation and remediation efforts. Specifically,
             component CISOs are required to review and approve all priority 4
             and priority 5 POA&Ms to ensure that the weaknesses are properly
             prioritized, and that appropriate resources have been identified for
             remediation. Priority 4 weaknesses are assigned to initial audit
             findings and priority 5 weaknesses for repeat audit findings. As of
             June 30, 2009, only 320 out of 365 Priority 4 and 5 POA&Ms have
             been reviewed and approved by a component CISO.
        �	   DHS components have not created POA&Ms for all known
             information security weaknesses. Component CISOs and
             Information Systems Security Officer (ISSOs) are responsible for
             ensuring that POA&M information is entered accurately and that
             weaknesses are mitigated timely. Component personnel cited a lack
             of time and staff as the explanation that their POA&Ms are not
             being updated regularly. For example,
                 � Three components (CBP, Management, and TSA) did not
                   create POA&Ms for findings identified in OIG audit reports
                   issued during FY 2009.
                 � Although six components (CBP, FEMA, ICE, NPPD, TSA,
                   and USCG) followed a manual process for maintaining
                   classified POA&Ms, not all components identified the
                   source of the weaknesses or include the creation date,
                   estimated completion dates, and the actual completion of the
                   POA&Ms. In addition, there is no evidence of periodic
                   updates, component CISO reviews, or that these weaknesses
                   were properly prioritized.
                 � Components are not creating POA&Ms for the weaknesses
                   identified during the C&A process or from the NIST
                   SP 800-53 self-assessments. As part of our C&A quality
                   review, we evaluated whether POA&Ms had been created
                   for any weakness that was identified during the C&A
                   process, or from the NIST SP 800-53 self-assessment when
                   controls had not been tested and where risks were not
                   accepted. In 17 instances, POA&Ms were not created for
                   the weaknesses identified during the C&A process.

        �	   Based on an analysis of data in DHS’ enterprise management tool,
             as of June 30, 2009, component CISOs and ISSOs are not
             maintaining current information as to the progress of security


Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 12
             weakness remediation and all POA&Ms are not being resolved in a
             timely manner.
                 � Component management is not updating all weaknesses
                   where the estimated completion date has been delayed. Of
                   the 3,918 open POA&Ms with estimated completion dates,
                   837 (21%) were delayed by at least 3 months (prior to
                   April 1, 2009). Furthermore, 563 POA&Ms had an
                   estimated completion date over one year old, dating as far
                   back as December 31, 2005. In addition, completion dates
                   for 226 of the 563 POA&Ms have not been updated since
                   March 2006.
                 � Resources required for the remediation of 298 (8%) of the
                   3,918 open POA&Ms were either not identified or listed the
                   cost of remediation as less than $50. DHS requires a
                   reasonable resources estimate of at least $50 be provided to
                   mitigate the weakness identified.
                 � 238 (6%) of 3,918 open POA&Ms are scheduled to take
                   more than 2 years to mitigate the weaknesses.
        �	   Based on our samples of the vulnerability assessment results
             performed by DHS SOC, CIS had not created POA&Ms for the
             high risk vulnerabilities that could not be mitigated timely.

        See Appendix G for the evaluation of DHS’ POA&M process.

Configuration Management

        To evaluate components’ compliance with DHS baseline configuration
        requirements, we determined whether required configuration settings
        had been implemented on the 50 systems selected for our C&A and
        configuration management reviews. For the systems selected for the
        C&A review, we performed testing to determine whether DHS baseline
        configuration settings were implemented on selected servers. For the
        systems selected for our configuration assessment, we verified whether
        NIST SP 800-53 controls and DHS baseline configuration settings were
        implemented on selected servers. Our review also includes the results
        of a limited number of systems evaluated during the year, such as the
        LAN-A, OneNet, Los Angeles International Airport, and web server
        audits. Results revealed that the components have not implemented all
        of the required DHS baseline configuration settings. We reported a
        similar issue in our FY2008 FISMA report.

        PROGRESS


Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 13
        �	   DHS documented the deviations from FDCC settings. In addition,
             components are in various stages of implementing the settings on
             their Windows XP and Vista desktops and laptops. Components are
             scheduled to complete the implementation by FY2011. Our testing
             results confirmed that FLETC had implemented FDCC settings on
             its Windows XP desktops and laptops.
        �	   DHS updated the baseline configuration guidelines for Oracle
             database, Windows XP, Windows 2003 Server, Windows 2008
             Server, and Windows Vista.

        ISSUES TO BE ADDRESSED

        �	   Components indicated that automated tools are needed to ensure
             that DHS baseline configuration settings are implemented
             consistently and more efficiently throughout the department.
        �	   DHS has not implemented the FDCC requirements, as outlined in
             OMB Memorandums M-07-11, Implementation of Commonly
             Accepted Security Configurations for Windows Operating Systems,
             March 22, 2007, and M-07-18, Ensuring New Acquisitions Include
             Common Security Configurations, June 1, 2007. For example, DHS
             has not incorporated the standard FDCC contract language into all
             IT acquisitions. CBP, CIS, FLETC, ICE and TSA have not
             incorporated the standard language into their IT contracts.
        �	   The majority of components, including Management, have yet to
             implement FDCC security settings.
        �	   Components have not implemented DHS baseline configuration
             settings on the systems reviewed. Specifically:
                 � Results from our C&A and configuration reviews indicated
                   that DHS’ baseline configuration settings have not been
                   implemented on the systems. For example, components
                   have not implemented warning banners, enforced password
                   complexities, or enabled audit trail policies.
                 � Vulnerability assessments performed at components during
                   our LAN-A, OneNet, Los Angeles International Airport, and
                   web server audits identified security concerns with access
                   control, identification and authentication, and configuration
                   management. In these instances, components had not
                   configured their systems based on DHS’ configuration




Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 14
                                      guidelines. Components included CBP, CIS, FEMA, ICE,
                                      Management, NPPD, TSA, USCG, and USSS.8

                         �	   Weak internal IT controls related to financial management systems
                              were found during the audit of the department’s consolidated
                              financial statements for FY 2008.9 Security concerns included
                              inadequate access controls, application controls, software
                              development, and change controls.

                         See Appendix J for information regarding DHS’ configuration
                         management.

                Incident Detection, Handling, and Analysis Procedures

                         DHS has established adequate incident detection, handling, and
                         analysis procedures, but has not fully implemented its vulnerability
                         assessment program across the department.

                         PROGRESS

                         �	   DHS continues to implement its Vulnerability Assessment Program
                              as the DHS SOC has full visibility to perform scans on workstations
                              and servers at CBP, CIS, DHS HQ, FLETC, and TSA.

                         ISSUES TO BE ADDRESSED

                         �	   FLETC, NPPD, OIG, and S&T did not submit weekly incident
                              reports to the DHS SOC, as required. Furthermore, the DHS SOC
                              does not follow-up with these components to obtain the missing
                              reports.
                         �	   DHS’ vulnerability assessment program has not been deployed
                              department-wide. The program includes a comprehensive
                              vulnerability alert, assessment, remediation, and reporting process
                              to effectively identify computer security vulnerabilities and track
                              mitigation efforts to resolution. The DHS SOC only has limited
                              access at FEMA and ICE, and cannot perform vulnerability


8
  Technical Security Evaluation of DHS Activities at Los Angeles International Airport (OIG-09-01,

October 2008), Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

(OIG-09-55, April 2009), Improved Management and Stronger Leadership Are Essential to Complete the 

OneNet Implementation (OIG-09-98, September 2009), and Vulnerabilities Highlight the Need for More 

Effective Web Security Management (OIG-09-101, September 2009). 

9
  Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit (OIG-09-50, 

April 2009). 

                 Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                   Page 15
                          assessments on their workstations and servers. Finally, the DHS
                          SOC has no access at OIG, USCG, and USSS.
                     See Appendix K for information regarding DHS’ incident reporting.

            Security Training

                     DHS validates components’ employee security training. The
                     department’s Information Security Training, Education, and Awareness
                     Office (Training Office) has not developed a specific training program
                     for employees with significant security responsibilities.

                     PROGRESS

                     �	   The Training Office has initiated a process requiring components to
                          identify all personnel with significant IT security-related
                          responsibilities.

                     ISSUES TO BE ADDRESSED

                     �	   The Training Office has not identified appropriate, specialized
                          security training for employees and contractors with significant IT
                          security responsibilities. We reported a similar issue in our
                          FY2006, FY2007, and FY2008 FISMA reports.10
                     �	 DHS contractors do not have access to DHScovery or the
                        standardized security awareness training offered by the system.
                     See Appendix L for information regarding DHS’ security awareness
                     training.

            Privacy

                     The Privacy Office continues to refine its PIA guidance. However, the
                     Privacy Office continues to experience delays in reviewing and
                     approving PIAs submitted by the components and has not implemented
                     all requirements specified in OMB M-07-16, Safeguarding Against and
                     Responding to the Breach of Personally Identifiable Information,
                     May 22, 2007. We reported a similar issue in our FY2008 FISMA
                     report.



10
  Evaluation of DHS’ Information Security Program for Fiscal Year 2006 (OIG-06-62, September 2006),
Evaluation of DHS’ Information Security Program for Fiscal Year 2007 (OIG-07-77, September 2007), and
Evaluation of DHS’ Information Security Program for Fiscal Year 2008 (OIG-08-94, September 2008).
            Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                              Page 16
        PROGRESS

        �	   The Privacy Office has issued new policies since our last review.
             For example, the Privacy Office issued:
                 � Handbook for Safeguarding Sensitive Personally
                   Identifiable Information at DHS to provide step by step
                   instructions on how to protect personal information.
                 � DHS Policy Regarding Privacy Impact Assessments
                   Memorandum to set forth the Privacy Officer’s requirements
                   to perform the privacy assessments.
                 � DHS Policy Regarding Fair Information Practice Principles
                   to reiterate that the Fair Information Practice Principles as
                   the foundational principles for DHS’ privacy policy.
                 � DHS Privacy Policy Regarding Collection, Use, Retention,
                   and Dissemination of Information on Non-U.S. Persons to
                   set forth the policy to protect the privacy information of
                   non-U.S. persons collected, used, retained, and/or disseminated
                   by the department.

        ISSUES TO BE ADDRESSED

        �	 DHS has not implemented all of the requirements outlined in
           OMB M-07-16. Specifically, DHS has not defined the
           consequences for users who do not comply with the policy. The
           Privacy Office is working in conjunction with the Office of General
           Counsel and the Chief Human Capital Office to develop the
           consequences of non-compliance policy.
        �	 DHS’ Privacy Office is experiencing delays in reviewing and
           approving PIAs. As of June 15, 2009, there were 99 PIAs in
           various stages of review; the PIAs for 3 operational systems had
           been outstanding for more than 230 days.
        See Appendix I for DHS’ Privacy Program and Privacy Impact
        Assessment Process.

Recommendations
        We recommend that the DHS Chief Information Officer:
        Recommendation #1: Improve the ISO’s review process to ensure that
        all POA&Ms, including those POA&Ms for classified systems, are
        complete, accurate, and current. Specifically, components must correct
        the POA&M deficiencies identified by the ISO review.


Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 17
        Recommendation #2: Ensure that all applicable controls are included
        in the security document when certifying and accrediting systems.
        Systems accredited with outdated documents or without all applicable
        controls should not be accepted.
        Recommendation #3: Improve the process to ensure that DHS baseline
        configuration requirements are implemented and maintained on all
        systems. The process should include testing and the use of automated
        tools and security templates to ensure that DHS baseline configuration
        settings are implemented.
        Recommendation #4: Expedite the implementation of a
        department-wide vulnerability assessment program to perform periodic
        testing to evaluate the security posture at all components. POA&Ms
        should be created for any high risk vulnerabilities that can not be
        mitigated timely.
        Recommendation #5: Establish appropriate training that is needed for
        all individuals with significant security responsibilities to perform their
        security functions.
        Recommendation #6: Evaluate and revise the department’s current
        FDCC implementation strategy to ensure the requirements outlined in
        OMB M-07-11 and M-07-18 are implemented expeditiously.

        We recommend that the DHS Chief Privacy Officer:
        Recommendation #7: Establish an escalation process for any PIAs that
        have been in the review and approval process for an extended period of
        time.
        Recommendation #8: Define the consequences of non-compliance by
        system users, in accordance with the requirements outlined in OMB
        M-07-16.

Management Comments and OIG Analysis
        DHS concurred with recommendation 1. DHS has taken actions to
        improve the ISO review process to ensure that all POA&Ms, including
        those POA&Ms for classified systems, are complete, accurate, and
        current. Improvements include the implementation of automated
        POA&M quality review checks performed daily and conducting
        reviews of POA&Ms to ensure that results from Annual Assessments,
        Information Technology Acquisition Reviews, and Enterprise
        Architecture Center of Excellence Reviews and OMB A-123 reviews
        are included.

Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 18
        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

        DHS concurred with recommendation 2. The certification and
        accreditation (C&A) document templates and applicable controls are
        generated by the DHS C&A Tool at the time the C&A is initiated.
        Additionally, the required C&A documents are reviewed by the ISO to
        ensure that all applicable controls are adequately addressed. The
        document review team has been instructed not to accept any outdated
        templates or documents without applicable controls in place.

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

        DHS concurred with recommendation 3. Components are required to
        validate 10% of their systems quarterly to ensure configuration
        requirements are being implemented and maintained. Additionally, the
        DHS FY10 Information Security Scorecard will show configuration
        management status based on component quarterly updates. DHS plans
        to complete periodic reviews of the component's process to ensure the
        validation is thorough and complete as part of our program review. The
        department also continues to research potential enterprise-level tools to
        support configuration management.

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

        DHS concurred with recommendation 4. The DHS SOC is responsible
        for implementing the department-wide Vulnerability Assessment
        Tracking (VAT) Program. The DHS SOC has vulnerability assessment
        scanning capabilities within DHS Headquarters and has deployed
        distributed scanning servers within most of the components.
        Implementation of the scanners at the remaining components is in
        progress. The DHS VAT Program requires at least one annual baseline
        scan of 100% of DHS systems. POA&Ms are required to be created for
        any high risk vulnerabilities identified that can not be mitigated timely.


Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 19
        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.
        DHS concurred with recommendation 5. DHS has begun to develop a
        role-based training package for component CIO's implementation to
        ensure the required security training of individuals with significant
        security responsibilities. The department performs training for
        individuals with significant security responsibilities as part of
        agency-wide and component sponsored security conferences and
        workshops. Additionally, several components have established their
        own role-based training for personnel with significant security
        responsibilities and invite other components to participate.

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

        DHS concurred with recommendation 6. DHS continues to make
        progress in implementing the FDCC requirements outlined in OMB
        M-07-11 and M-07-18. DHS has published the revised DHS Hardening
        Guide to incorporate the FDCC requirements for Windows XP and
        Vista.

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

        DHS concurred with recommendation 7. The Privacy Office is refining
        its escalation policy for addressing concerns with outstanding privacy
        compliance documentation. Once the Chief Privacy Officer approves
        that policy it will be distributed to the Component Privacy Officers and
        privacy points of contact. The Privacy Office anticipates the
        publication of the policy prior to the end of the calendar year.
        Additionally, the Privacy Office has increased the amount of
        component specific training being conducted in an effort to shorten the
        amount of time required for a PIA to be completed.

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until DHS provides documentation to
        support that all planned corrective actions are completed.

Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 20
        DHS concurred with recommendation 8. The Chief Privacy Officer
        satisfied her part of the requirement outlined in OMS M-07-l6 by
        issuing the Handbook for Safeguarding Sensitive Personally
        Identifiable Information at DHS on October 31, 2008. A memo to all
        employees was sent in December 2008 with a link to the rules. These
        are considered the "rules" associated with the requirement for "rules
        and consequences."

        We agree that the steps that DHS is taking, and plans to take, begin to
        satisfy this recommendation. We consider this recommendation
        resolved and will remain open until the consequences of
        non-compliance policy, which the Privacy Office is working on in
        conjunction with the Office of General Counsel and the Chief Human
        Capital Office to develop, is finalized.




Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                  Page 21
Appendix A
Purpose, Scope, and Methodology


                    The objective of this review was to determine whether DHS has developed
                    adequate and effective information security policies, procedures, and
                    practices, in compliance with FISMA. In addition, we evaluated DHS’
                    progress in developing, managing, and implementing its information security
                    program.

                    Our independent evaluation focused on DHS’ information security program
                    and practices, based on the requirements outlined in FISMA and, using OMB
                    Memorandum M-09-29, FY 2009 Reporting Instructions for the Federal
                    Information Security Management Act and Agency Privacy Management,
                    issued on August 20, 2009. We conducted our work at the program level and
                    at DHS’ major components: CBP, CIS, FEMA, FLETC, ICE, Management,
                    NPPD, OIG, S&T, TSA, USCG, and USSS.

                    In addition to our independent evaluation, we conducted reviews of DHS’
                    information systems and security program-related areas throughout FY 2009.
                    This report includes the results of a limited number of systems evaluated
                    during the year and our on-going financial statement review, including the
                    LAN-A, OneNet, Los Angeles International Airport, and Web server audits.

                    As part of our evaluation of DHS’ compliance with FISMA, we assessed DHS
                    and its components’ compliance with the security requirements mandated by
                    FISMA and other federal information systems’ security policies, procedures,
                    standards, and guidelines including NIST SP 800-37, and FIPS-199.
                    Specifically, we: (1) used last year’s FISMA independent evaluation as a
                    baseline for this year’s review and assessed the progress that DHS has made
                    in resolving weaknesses previously identified; (2) focused on reviewing DHS’
                    POA&M process to ensure that all security weaknesses are identified, tracked,
                    and addressed; (3) reviewed policies, procedures, and practices that DHS has
                    implemented at the program level and at the component level; (4) evaluated
                    processes (i.e., system inventory, C&A, security training, and incident
                    response that DHS has implemented as part of its agency-wide information
                    security program); and, (5) developed our independent evaluation of DHS’
                    information security program.

                    We reviewed the quality of C&A packages for a sample of 35 systems at 12
                    components and offices: CBP, CIS, FEMA, FLETC, ICE, Management,
                    NPPD, OIG, S&T, TSA, USCG, and USSS, to ensure that all of the required
                    documents were completed prior to system accreditation. In addition, we
                    evaluated the implementation of DHS’ baseline configurations and
                    compliance with selected NIST SP 800-53 controls for 20 systems at CBP,
                    CIS, FEMA, FLETC, ICE, Management, NPPD, S&T, TSA, USCG,

                   Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                 Page 22
Appendix A
Purpose, Scope, and Methodology


                    and USSS.

                    We conducted our evaluation between April and August 2009 under the
                    authority of the Inspector General Act of 1978, as amended, and according to
                    the Quality Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency. Major OIG contributors to the evaluation are
                    identified in Appendix L.

                    The principal OIG points of contact for the evaluation are Frank Deffer,
                    Assistant Inspector General, Office of Information Technology at
                    (202) 254-4100 and Edward G. Coleman, Director, Information Security
                    Audit Division at (202) 254-5444.




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                 Page 23
Appendix B
Management Response to Draft Report




                Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                 Page 24 

Appendix B
Management Response to Draft Report




                Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                 Page 25 

Appendix B
Management Response to Draft Report




                Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                 Page 26 

Appendix C
DHS June and July 2009 FISMA Scorecards




               Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                Page 27 

Appendix D
DHS June and July 2008 FISMA Scorecards




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                 Page 28 

Appendix E
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing


                                                                    Question 1: System Inventory
1. Identify the number of agency and contractors systems by component and FIPS 199 impact level (low, moderate, high). Please also identify the number of systems
that are used by your agency but owned by another federal agency (i.e., ePayroll, etc.) by component and FIPS 199 impact level.

                                 Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems identified by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of
systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested within in
accordance with policy.

                                                                Question 1                                                                Question 2
                              a.                    b.                       c.                       d.                  a.                   b.                   c.
                        Agency Systems          Contractor            Systems Used by          Total Number of        Number of            Number of           Number of
                                                 Systems               the Agency but             Systems          systems certified      systems for         systems for
                                                                      Owned by Another          (Agency and         and accredited       which security           which
                                                                           Agency                Contractor                              controls have        contingency
                                                                                                  systems)                              been tested and     plans have been
                                                                                                                                        reviewed in the         tested in
                                                                                                (Column A +                                past year        accordance with
                                                                                                 Column B)                                                        policy

          FIPS 199
                                                                                                         Total
Bureau     System                 Number                Number                  Number         Total                Total    Percent     Total   Percent     Total   Percent
                       Number               Number                    Number                            Number
 Name      Impact                Reviewed              Reviewed                Reviewed       Number               Number    of Total   Number   of Total   Number   of Total
                                                                                                       Reviewed
            Level
 CBP        High         18         10         1            0            0          0           19        10          10      100%        10      100%        10      100%
          Moderate       30          3         1            0            0          0           31         3          3       100%        3       100%        3       100%
             Low          0          0         1            1            0          0            1         1          1       100%        1       100%        1       100%
          Undefined       0          0         0            0            1          1           1          0          0        0%         0        0%         0         0%
          Sub-total      48         13         3            1            1          1           51        14          14      100%        14      100%        13       93%
DNDO        High          0          0         0            0            0          0            0         0          0        0%         0        0%         0         0%
          Moderate        1          0         0            0            0          0           1          0          0        0%         0         0%         0        0%
             Low          0          0          0           0            0          0            0         0           0        0%         0        0%         0        0%
          Sub-Total       1          0         0            0            0          0           1          0           0        0%         0        0%         0        0%
FEMA        High         14          7          5           2            0          0           19         9           9      100%         8       89%         7       78%
          Moderate       14          2         14           3            0          0           28         5           4       80%         4       80%         5      100%
             Low          5          1          4           0            0          0            9         1           1      100%         1      100%         1      100%

                                                    Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                                                  Page 29 

Appendix E
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing


         Sub-total    33       10        23           5           0           0          56         15          14      93%   13    87%   13    87%
FLETC      High        0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
         Moderate      7        2         2           1           0           0          9           3          3      100%   3    100%   3    100%
           Low         0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
         Undefined     1        0         0           0           0           0          1           0          0        0%   0      0%   0      0%
         Sub-total    8         2        2            1           0           0          10          3          3      100%   3    100%   3    100%
 I&A       High        1        0         1           0           0           0           2          0          0        0%   0      0%   0      0%
         Moderate      0        0         0           0           0           0          0           0          0        0%   0      0%   0      0%
           Low         1        0         0           0           0           0           1          0          0        0%   0      0%   0      0%
         Sub-total    2         0        1            0           0           0          3           0          0        0%   0      0%   0      0%
 ICE       High        9        3        14           3           0           0          23          6          5       83%   1     17%   6    100%
         Moderate     16        2        24           2           0           0          40          4          4      100%   1     25%   4    100%
           Low         7        0         5           0           0           0          12          0          0        0%   0      0%   0      0%
         Sub-total    32        5        43           5           0           0          75         10          9       90%   2     20%   10   100%
 ISO       High        1        0         0           0           0           0           1          0          0        0%   0      0%   0      0%
         Moderate      0        0         1           0           0           0           1          0          0        0%   0      0%   0      0%
           Low         0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
         Sub-total    1         0        1            0           0           0          2           0          0        0%   0      0%   0      0%
 RMC       High        6        3         8           2           0           0           4          5          5      100%   1     20%   3     60%
         Moderate      4        2         4           1           0           0           8          3          3      100%   3    100%   2     67%
           Low         0        0         1           0           0           0           1          0          0        0%   0      0%   0      0%
         Undefined     1        0         0           0           0           0           1          0          0        0%   0      0%   0      0%
         Sub-total    11        5        13           3           0           0          24          8          8      100%   3     38%   5     63%
NPPD       High        2        0         6           4           0           0           8          4          4      100%   3     75%   3     75%
         Moderate      5        0        10           0           0           0          15          0          0        0%   0      0%   0      0%
           Low         1        1         1           0           0           0           2          1          1      100%   1    100%   1    100%
         Sub-total    8         1        17           4           0           0          25          5          5      100%   4     80%   4     80%
 OIG       High        2        0         0           0           0           0           2          0          0        0%   0      0%   0      0%
         Moderate      0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
           Low         0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
         Sub-total    2         0        0            0           0           0          2           0          0        0%   0      0%   0      0%
 OPS       High        1        0         1           0           0           0           2          0          0        0%   0      0%   0      0%
         Moderate      1        0         0           0           0           0           1          0          0        0%   0      0%   0      0%

                                              Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                                            Page 30 

Appendix E
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing


           Low         0        0         0           0           0           0           0          0          0        0%   0      0%   0      0%
         Sub-total    2         0        1            0           0           0          3           0          0        0%   0      0%   0      0%
 S&T       High        2        0         1           0           0           0           3          0          0        0%   0      0%   0      0%
         Moderate      4        2         5           1           0           0           9          3          3      100%   3    100%   3    100%
           Low         1        0         5           0           0           0           6          0          0        0%   0      0%   0      0%
         Sub-total    7         2        11           1           0           0          18          3          3      100%   3    100%   3    100%
 TSA       High       15        3         8           2           0           0          23          5          5      100%   5    100%   5    100%
         Moderate     29        3        15           0           0           0          44          3          3      100%   3    100%   3    100%
           Low         5        0         2           0           0           0           7          0          0        0%   0      0%   0      0%
         Undefined     7        3         0           0           0           0           7          3          3      100%   2     67%   3    100%
         Sub-total    56        9        25           2           0           0          81         11          11     100%   10    91%   11   100%
USCG       High       37        7         5           3           0           0          42         10          10     100%   8     80%   9     90%
         Moderate     44        6        17           3           0           0          61          9          6       67%   4     44%   9    100%
           Low        12        0         4           2           0           0          16          2          1       50%   1     50%   2    100%
         Sub-total    93       13        26           8           0           0         119         21          17      81%   13    62%   20    95%
USCIS      High        0        0         1           0           0           0           1          0          0        0%   0      0%   0      0%
         Moderate     61        3        32           7           0           0          93         10          10     100%   10   100%   10   100%
           Low         0        0        2            0           0           0          2           0           0     0%     0    0%     0    0%
         Sub-total    61        3        35           7           0           0          96         10          10     100%   10   100%   10   100%
USSS       High        9        3        0            0           0           0           9          3           3     100%   2    67%    3    100%
         Moderate      3        0        0            0           0           0          3           0           0      0%    0     0%    0     0%
           Low         1        0        0            0           0           0           1          0           0      0%    0     0%    0     0%
         Sub-total    13        3        0            0           0           0          13          3           3     100%   2    67%    3    100%
Agency
           High       117      36        51          16           0           0         168         52          51     98%    38   73%    46   88%
Totals
         Moderate     219      25       125          18           0           0         344         43          39      91%   34   79%    42    98%
           Low         33       2        25           3           0           0          58          5          4       80%   4    80%    5    100%
         Undefined     9        3        0            0           1           1          9           3          3      100%   2    67%    3    100%
           Total      378      66       201          37           1           1         579         103         97      94%   78   76%    96    93%




                                              Evaluation of DHS’ Information Security Program for Fiscal Year 2009 


                                                                            Page 31 

Appendix F
Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory


 Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory


The agency performs oversight and evaluation to ensure information systems used or
operated by a contractor of the agency or other organization on behalf of the agency
                                                                                                         Response:
meet the requirements of FISMA, OMB policy and NIST guidelines, national security
policy, and agency policy.


Does the agency have policies for oversight of contractors? Yes/No                                           Yes

If the answer above is Yes, Is the policy implemented?                                                     Yes (a)

The agency has a materially correct inventory of major information systems (including
                                                                                                             Yes
national security systems) operated by or under the control of such agency.
Yes/No

Does the agency maintain an inventory of interfaces between the agency systems and
all other systems, such as those not operated by or under the control of the agency?                         Yes
Yes/No

Does the agency require agreements for interfaces between systems it owns or
operates and other systems not operated by or under the control of the agency?                             Yes (b)
Yes/No
The IG generally agrees with the CIO on the number of agency-owned systems.
                                                                                                             Yes
Yes/No
The IG generally agrees with the CIO on the number of information systems used or
operated by a contractor of the agency or other organization on behalf of the agency.                        Yes
Yes/No
The agency inventory is maintained and updated at least annually.
                                                                                                             Yes
Yes/No
If the IG does not indicate that the agency has a materially correct inventory, please identify any known
missing major systems by Component/Bureau, the Unique Project Identifier (UPI) associated with the systems
as presented in the FY 2009 Exhibit 300 (if known), and indicate if the system is an agency or contractor
system.
                                                                 Exhibit 300 Unique        Agency or Contractor
     Component/Bureau                  System Name
                                                               Project Identifier (UPI)           System?
                                                                                              Agency System
             CBP                      WWW.CBP.GOV                                           Owned by Another
                                                                                                  Agency




Number of known
systems missing from                 1 System Missing
the inventory:
(a) Implementation of policy for contractor owned or operated systems needs improvement. 	During our C&A review and web
    server audit, we identified instances where components did not ensure that the required vulnerability assessments or
    configuration setting reviews are performed by the contractors.
(b) During our C&A quality review, we found that some memorandum of agreements (MOAs) were out-dated or have yet to be
    established.
                         Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                         Page 32
Appendix G
Evaluation of Agency Plan of Action and Milestones Process


         Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the agency has developed, implemented, and is managing an agency-wide
plan of action and milestones (POA&M) process, providing explanatory detail in the area                        Response:
provided.

Has the Agency developed and documented an adequate policy that establishes a POA&M
process for reporting IT security deficiencies and tracking the status of remediation efforts?                   Yes (a)
Yes/No

Has the Agency fully implemented the policy? Yes/No                                                              Yes(b)

Is the Agency currently managing and operating a POA&M process? Yes/No                                           Yes (c)

Is the agency's POA&M process an agency-wide process, incorporating all known IT security
weakness, including IG/external audit findings associated with information systems used or
                                                                                                                 Yes (d)
operated by the agency or by a contractor of the agency or other organization on behalf of
the agency? Yes/No

Does the POA&M process prioritize IT security weakness to help ensure significant IT
security weaknesses are corrected in a timely manner and receive appropriate resources?                          No (e)
Yes/No

When an IT security weakness is identified, do program officials (including CIOs, if they own
                                                                                                                   Yes
or operate a system) develop, implement, and manage POA&Ms for their system(s)? Yes/No

For Systems Reviewed:
                                                                                                              a. Yes
a. Are deficiencies tracked and remediated in a timely manner? Yes/No
                                                                                                              b. Yes
b. Are the remediation plans effective for correcting the security weakness? Yes/No
                                                                                                              c. Yes (f)
c. Are the estimated dates for remediation reasonable and adhered to? Yes/No
Do Program officials and contractors report their progress on security weakness remediation
                                                                                                                 Yes (g)
to the CIO on a regular basis (at least quarterly)? Yes/No

Does the Agency CIO centrally track, maintain, and independently review/validate POA&M
                                                                                                                 Yes (h)
activities on at least a quarterly basis? Yes/No
(a) DHS requires components to create and manage POA&Ms for all known IT security weaknesses.
(b) As of June 30, 2009, DHS has 3,918 open POA&Ms. 	However, POA&Ms have not been created for all weaknesses
    identified during the C&A process. Components are not consistently maintaining and tracking their classified POA&Ms.
(c) DHS is managing and operating a POA&M process on its unclassified systems. However, components are not consistently
    maintaining, tracking, or prioritizing their classified POA&Ms.
(d) POA&Ms have not been created for all OIG audit findings. 	Components have created POA&Ms for 162 out of 179 (91%)
    recommendations cited in OIG audit reports (including Notice of Findings and Recommendations).
(e) For classified POA&Ms, components have not identified the source of the weakness or included the milestones of the
    POA&Ms. In addition, there is no evidence of periodic updates, component CISO reviews, or that these weaknesses were
    properly prioritized.
(f) Out of the 3,918 open POA&Ms, there are 837 POA&MS that are three months past due and 563 POA&MS that are 12
    months past due. Our review also determined that 1,859 out of 3,918 (47%) open POA&Ms have been delayed.
(g) DHS requires that all POA&M information be updated at least monthly. 	However, POA&Ms have not been updated on a
    regular basis. For example, 1,488 out of 3,918 (38%) open POA&Ms have not been updated within the last 90 days.
(h) The CIO regularly performs daily quality reviews (automated) on all POA&Ms to ensure that information entered into the
    enterprise management system is accurate, reasonable, and complete. However, components are not entering and tracking all
    IT security weaknesses in DHS’ enterprise management tool, nor is all of the data entered by the components accurate and
    updated in a timely manner.
                           Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                          Page 33
Appendix H
IG Assessment of the Certification and Accreditation Process


                   Question 5: IG Assessment of the Certification and Accreditation Process

Provide a qualitative assessment of the agency's certification and accreditation
process, including adherence to existing policy, guidance, and standards. Agencies
shall follow NIST Special Publication 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems (May 2004) for certification and
accreditation work initiated after May 2004. This includes use of the FIPS 199                             Response:
(February 2004), Standards for Security Categorization of Federal Information and
Information Systems, to determine a system impact level, as well as associated NIST
documents used as guidance for completing risk assessments and security plans.
Provide explanatory detail in the area provided.


Has the Agency developed and documented an adequate policy for establishing a
                                                                                                             Yes (a)
certification and accreditation process that follows the NIST framework? Yes/No


Is the Agency currently managing and operating a C&A process in compliance with
                                                                                                               Yes
its policies? Yes/No

                                             Appropriate risk categories
                                                                                                                X

                                             Adequate risk assessments
                                                                                                                X

For systems reviewed, does the
C&A process adequately provide:              Selection of appropriate controls
                                                                                                                X

(check all that apply)
                                             Adequate testing of controls
                                                                                                                X

                                             Regular monitoring of system risks and the
                                                                                                                X

                                             adequacy of controls

For systems reviewed, is the Authorizing Official presented with complete and
reliable C&A information to facilitate an informed system Authorization to Operate                           Yes (b)
decision based on risks and controls implemented? Yes/No

(a) DHS bases its certification and accreditation (C&A) process on NIST SP 800-37, Guide for the Security Certification and
    Accreditation of Federal Information Systems, for its unclassified systems. Components are required to follow Department of
    Defense (DoD) Information Assurance Certification and Accreditation Process when certifying and accrediting its classified
    systems.
(b) Based on our review of 35 systems across 12 components, artifacts that are required to C&A a system were either missing or
    incomplete.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                           Page 34 

Appendix I
IG Assessment of Agency Privacy Program and Privacy Impact Assessment Process


  Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

Provide a qualitative assessment of the agency's process, as discussed in Section D,
for protecting privacy-related information, including adherence to existing policy,                       Response:
guidance and standards. Provide explanatory information in the area provided.
                                                                                                            Yes (a)
Has the Agency developed and documented adequate policies that comply with OMB
guidance in M-07-16, M-06-15, and M-06-16 for safeguarding privacy-related
information? Yes/No
                                                                                                              Yes
Is the Agency currently managing and operating a privacy program with appropriate
controls in compliance with its policies? Yes/No

                                                                                                              Yes
Has the Agency developed and documented an adequate policy for Privacy Impact
Assessments? Yes/No/NA

Has the Agency fully implemented the policy and is the Agency currently managing                              Yes
and operating a process for performing adequate privacy impact assessments?
Yes/No/NA
(a) DHS has not implemented all of the requirements outlined in OMB M-07-16. Specifically, DHS has not defined the
consequences for any users who do not comply with the policy. The Privacy Office is working in conjunction with the Office of
General Counsel and the Chief Human Capital Office to develop the consequences of non-compliance policy.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                           Page 35 

Appendix J
Configuration Management


                                         Question 7: Configuration Management


                                                                                                               Response:


Is there an agency-wide security configuration policy? Yes/No                                                      Yes


                                                                                                           Tenable Security
What tools, techniques is your agency using for monitoring compliance?
                                                                                                               Center


Indicate the status of the implementation of FDCC at your agency :
                                                                                                                   Yes
- Agency has documented deviations from FDCC standard configuration. Yes/No

- New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—
Acquisition of Information Technology", is included in all contracts related to common                            No (a)
security settings. Yes/No.

(a) DHS has not incorporated the standard FDCC contract language into all IT acquisitions. 	 CBP, FLETC, ICE and TSA have
    not incorporated the standard language into their IT contracts. While CIS indicated that they had incorporated the language
    into their IT acquisitions, we could not identify the FDCC standard language in the contracts sampled.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                            Page 36 

Appendix K
Incident Reporting


                                         Question 8: Incident Reporting


                                                                                               Response:

How often does the agency comply documented policies and procedures for
                                                                                               90-100%
identifying and reporting incidents internally? Answer will be a percentage range


How often does the agency comply with documented policies and procedures for
                                                                                               90-100%
timely reporting of incidents to US CERT? Answer will be a percentage range


How often does the agency comply documented policy and procedures for reporting
                                                                                               90-100%
to law enforcements? Answer will be a percentage range




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                     Page 37 

Appendix L
Security Awareness Training and Peer-to-Peer File Sharing



                                        Question 9: Security Awareness Training

                                                                                                               Response:


Has the agency ensured IT security awareness training of all users with log in
                                                                                                                 Yes. (a)
privileges, including contractors and those employees with significant IT security
responsibilities? Provide explanatory detail in the space provided.


Has the Agency developed and documented an adequate policy for identifying all
general users, contractors, and system owners/employees who have log in privileges,                                Yes
and providing them with suitable IT security awareness training? Yes/No/NA

Report the following for your agency:
                                                                                                         Unable to Determine
                                                                                                                 (b)
Total number of people with log in privileges to agency systems


Number of people with log in privileges to agency systems that received information
security awareness training during the past fiscal year, as described in NIST Special                    Unable to Determine
Publication 800-50, "Building an Information Technology Security Awareness and
Training Program" (October 2003).



Total number of employees with significant information security responsibilities.                                 2,701


Number of employees with significant security responsibilities that received
specialized training, as described in NIST Special Publication 800-16, “Information
                                                                                                                  2,535
Technology Security Training Requirements: A Role- and Performance-Based Model”
(April 1998)




                                          Question 10: Peer-to-Peer File Sharing


                                                                                                               Response:


Does the agency explain policies regarding the use peer-to-peer file sharing in IT
                                                                                                                   Yes
security awareness training, ethics training, or any other agency-wide training? Yes/No

(a) DHS requires all employees and contractors to take security awareness training at least annually.
(b) As of August 1, 2009, DHS has a total of 262,049 employees and contractors at various components. 	DHS does not maintain
    a centralized list of users with log in privileges. Components are responsible for creating and maintaining user accounts for
    its employees and contractors. As such, we are unable to determine the number of users with log in privileges.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                            Page 38 

Appendix M
Major Contributors to this Report



                      Information Security Audit Division

                      Edward G. Coleman, Director
                      Chiu-Tong Tsang, Audit Manager
                      Barbara Bartuska, Audit Manager
                      Mike Horton, Information Technology Officer
                      Maria L. Rodriguez, Team Lead
                      Aaron Zappone, Program Analyst
                      Thomas Rohrback, IT Specialist
                      Michael Kim, IT Auditor
                      David Bunning, IT Specialist
                      Joseph Landas, Management/Program Assistant
                      Lauren Badley, Management/Program Assistant

                      Pamela Chambliss-Williams, Referencer




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2009

                                                 Page 39
Appendix N
Report Distribution



                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Assistant Secretary for Legislative and Intergovernmental Affairs
                        Assistant Secretary for Policy
                        Assistant Secretary for Public Affairs
                        Chief Information Officer
                        Deputy Chief Information Officer
                        Chief Financial Officer
                        Chief Privacy Officer
                        Chief Human Capital Officer
                        Chief Information Security Officer
                        Director, GAO/OIG Liaison Office
                        Director, Compliance and Oversight Program, Office of CIO
                        Deputy Director, Compliance and Oversight Program, Office of CIO
                        Director, Privacy Compliance
                        Chief Information Officer Audit Liaison
                        Chief Information Security Officer Audit Liaison
                        Privacy Office Audit Liaison
                        Component CIOs
                        Component CISOs

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2009


                                                    Page 40 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
